1a
EFiled: Apr 16 2020 02:40PM EDT
Filing ID 65582521
Case Number 394, 2019

[SEAL]

IN THE SUPREME COURT OF THE
STATE OF DELAWARE
MATTHEW ANDERSON,

§
§
Plaintiff Below,
§
Appellant,
§
v.
§
§
LIEUTENANT JOHN
§
BONNEWELL, individually,
SERGEANT BRUCE TAYLOR, §
§
individually, and CORREC§
TIONAL OFFICER EDGAR
§
VERDE, individually,
§
Defendants Below,
§
Appellees.
§

No. 394, 2019

Court Below –
Superior Court
of the State of
Delaware
C.A. No.
N17C-02-080

Submitted: April 1, 2020
Decided: April 16, 2020
Before SEITZ, Chief Justice; VALIHURA, and
MONTGOMERY-REEVES, Justices.
ORDER
On this 16th day of April, 2020, the Court, having
considered this matter on the briefs filed by the parties
and the record below, has determined that the judgment of the Superior Court should be affirmed on the
basis of and for the reasons assigned by the Superior
Court in its August 19, 2019 telephonic ruling.

2a
NOW, THEREFORE, IT IS ORDERED that the
judgment of the Superior Court is AFFIRMED.
BY THE COURT:
/s/ Tamika R. Montgomery-Reeves
Justice

3a
[SEAL]

EFiled: Aug 19 2019 11:58AM EDT
Transaction ID 64107917
Case No. N17C-02-080-FWW
EFiled: Jun 03 2019 04:19PM EDT
Transaction ID 63317838
Case No. N17C-02-080 FWW

[SEAL]

IN THE SUPERIOR COURT OF THE
STATE OF DELAWARE
MATTHEW ANDERSON,
Plaintiff,
v.
LIEUTENANT JOHN
BONNEWELL, et al.
Defendants.

)
)
)
)
)
)
)
)

C.A. No.
N17C-02-080-FWW

ORDER
The Court having considered Defendant Correctional Officer Edgar Verde’s [Lt. John Bonnewell’s] Motion for Summary Judgment and any response thereto:
IT IS HEREBY ORDERED this day 19th of August 2019 that the Motion for Summary Judgment is
hereby GRANTED [for the reasons set forth at a teleconference this date]. Judgment is hereby entered in
favor of Defendant Correctional Officer Edgar Verde
[Lt. John Bonnewell] and against Plaintiff on all claims
asserted in the Complaint. There being no just reason

4a
for delay, this Order shall constitute a final order pursuant to Superior Court Civil Rule 54(b).
/s/ Ferris W. Wharton
The Honorable Ferris W. Wharton
[FILE STAMP]

5a
[SEAL]

EFiled: Aug 19 2019 11:58AM EDT
Transaction ID 64107917
Case No. N17C-02-080-FWW
EFiled: Jun 03 2019 10:58AM EDT
Transaction ID 63314646
Case No. N17C-02-080 FWW

[SEAL]

IN THE SUPERIOR COURT OF THE
STATE OF DELAWARE
MATTHEW ANDERSON,
Plaintiff,
v.
LIEUTENANT JOHN
BONNEWELL, et al.
Defendants.

)
)
)
)
)
)
)
)

C.A. No.
N17C-02-080-FWW

ORDER
The Court having considered Defendant Bruce
Taylor’s Motion for Partial Summary Judgment on
Plaintiff ’s Claims against him and any response
thereto:
IT IS HEREBY ORDERED this day 19th of August, 2019 that the Motion is hereby GRANTED [for
the reasons set forth at a teleconference this date].
/s/ Ferris W. Wharton
The Honorable Ferris W. Wharton
[FILE STAMP]

6a
[SEAL]

EFiled: Aug 19 2019 11:58AM EDT
Transaction ID 64107917
Case No. N17C-02-080-FWW
EFiled: Jun 03 2019 05:02PM EDT
Transaction ID 63318177
Case No. N17C-02-080 FWW

[SEAL]

IN THE SUPERIOR COURT OF THE
STATE OF DELAWARE
MATTHEW ANDERSON,
Plaintiff,
v.
LIEUTENANT JOHN
BONNEWELL, et al.
Defendants.

)
)
)
)
)
)
)
)

C.A. No.
N17C-02-080-FWW

ORDER
The Court having considered Defendant Correctional Officer Edgar Verde’s Motion for Summary
Judgment and any response thereto:
IT IS HEREBY ORDERED this day 19th of August, 2019 that the Motion for Summary Judgment is
hereby GRANTED [for the reasons set forth at a teleconference this date]. Judgment is hereby entered in
favor of Defendant Correctional Officer Edgar Verde
and against Plaintiff on all claims asserted in the Complaint. There being no just reason for delay, this Order

7a
shall constitute a final order pursuant to Superior
Court Civil Rule 54(b).
/s/ Ferris W. Wharton
The Honorable Ferris W. Wharton
[FILE STAMP]

8a
EFiled: Oct 04 2019 10:43AM EDT
Transaction ID 64274430
[SEAL]
Case No. N17C-02-080 FWW
IN THE SUPERIOR COURT IN
THE STATE OF DELAWARE
IN AND FOR NEW CASTLE COUNTY
CIVIL DIVISION
–––
MATTHEW ANDERSON
vs.
LIEUTENANT JOHN
BONNEWELL, et al

:
:
:
:
:

No. N17C-02-080

MOTION FOR SUMMARY JUDGMENT RULING –
TELECONFERENCE
–––
BEFORE: THE HONORABLE FERRIS W. WHARTON
–––
Friday, August 16, 2019
Commencing at 10:00 a.m.
–––
Delaware Superior Court, Chambers
Wilmington, Delaware
–––
KIMBERLY A. BURSNER, RPR
OFFICIAL COURT REPORTER
500 NORTH KING STREET, SUITE 2609
WILMINGTON, DELAWARE 19801
(302) 255-0572

9a
[2] COUNSEL APPEARED AS FOLLOWS:
PAT GALLAGHER, ESQUIRE
for the Plaintiff
GEORGE LEES, ESQUIRE
for Defendant C.O. Edgar Verde
MARTIN O’CONNOR, ESQUIRE
for Defendant Lieutenant John Bonnewell
CARLA JAROSZ, ESQUIRE
for Defendant Sergeant Bruce Taylor
[3] MR. GALLAGHER: Pat Gallagher with
Jacobs and Crumplar for plaintiff and I have our paralegal Regina Katz sitting here with me.
THE COURT:
ing, Ms. Katz.

Who else is here? Good morn-

MS. KATZ: Good morning.
MR. O’CONNOR: Good morning, Your Honor.
Martin O’Connor and Carla Jarosz with paralegal Jen
waiting for the hearing or the decision to come
through. And George Lees should be on the line somewhere.
MR. LEES: Good morning, Your Honor.
George Lees, Department of Justice. I’m on the call as
well. Thank you.
THE COURT: Good morning to all of you
and I appreciate you all being available on short notice
and especially you, Mr. Lees. I understand you are on
vacation, so I won’t – try not to take up any more of
your time than is necessary.

10a
So we will get right to it.
Before the Court are the defendants’ [4] separate
motions for summary judgment. The Court has considered the motions, the omnibus response of the plaintiff
and oral argument which was held on August the 16th.
Trial is scheduled to begin on September the 3rd
and because of the compressed nature of the motion
practice and the short time until trial that is left to us,
the Court felt that announcing its decision in this fashion rather than by written opinion or order would be
appropriate.
The complaint alleges identical claims for relief
against all three defendants. The plaintiff at the time
of the incident giving rise to the complaint was a sentenced inmate at the Sussex V.O.O. Center.
Defendant John Bonnewell was a correctional
lieutenant. Defendant Bruce Taylor a sergeant and defendant Edgar Verde a correctional officer.
The claims allege assault, battery, intentional infliction of emotional distress, a violation of the plaintiff ’s civil rights [5] under the eighth amendment to
the United States Constitution as enforced by 42
U.S.C. 1983 and a violation of his comparable right under Article 1 of the Delaware Constitution and conspiracy to violate his right to be free from cruel and
unusual punishment as enforced by 42 U.S.C. 1985 and
civil conspiracy under state law.
All of the motions for summary judgment argue
some of the same reasons in support of the motions,

11a
qualified immunity, Delaware State Tort Claims Act
immunity, that the assault and battery and intentional
infliction of emotional distress and the Delaware civil
rights claims and conspiracy failed because either the
lack of evidentiary support in the record or are insufficient as a matter of law. And also the use of force was
justified.
Court has the benefit of a video recording of the
incident which the Court finds very helpful in resolving the motions. The video does have its limitations,
however. [6] Chief among them are that there is no
audio and the video only shows the altercation from a
single angle. Nonetheless, the video clearly shows certain things occurred.
To the extent that anything the Court describes as
facts shown by the video conflicts with the allegations
of the plaintiff, the Court has determined that the
video blatantly contradicts the plaintiff ’s version such
that no reasonable jury could believe it.
The relevant portion of the video last approximately a minute and a half and shows the following:
One, a line of inmates on the left side of the video
walking towards the camera which appears to be positioned at ceiling level looking down the hallway in
which the inmates are walking.
The plaintiff appears to throw something into a
room to his right and this action appears to be of no
significance because none of the defendants claim to
have [7] seen him do that.

12a
Lieutenant Bonnewell appears walking to the
right side of the hallway in the opposite direction of the
line of inmates and on the opposite side of the hall.
The plaintiff makes a gesture with his left hand
and arm in what appears to be an attempt to get
Bonnewell’s attention. The defendant’s left arm is
slightly raised and his thumb and forefinger are extended, but the motion does not appear to be done in
an aggressive manner.
The plaintiff appears to say something to
Bonnewell. Bonnewell stops and says something to the
plaintiff who then turns his head to face forward towards the front of the line. Bonnewell is at this time
several feet away from the plaintiff and on the opposite
side of the hallway.
Bonnewell then continues on his way for about
another six or seven paces or about 15 to 20 feet.
The plaintiff turns and, again, appears to speak to
Bonnewell as [8] Bonnewell is walking away. Bonnewell
turns and walks back to the plaintiff quickly.
This time, unlike the first time when Bonnewell
was on the opposite side of the hallway as the plaintiff,
Bonnewell appears – approaches the defendant and
stands directly in front of him with his face inches from
the plaintiff ’s face.
At this point Sergeant Taylor comes into view from
the same direction as Bonnewell had been walking
behind Bonnewell’s left side and stands shoulder to

13a
shoulder with him as both men point past the plaintiff
– point past the plaintiff with their hands.
Bonnewell with his right hand and Taylor with his
left. Does not appear to be disputed that they’re pointing to something called the footprints which is an area
out of view of the camera where inmates are sometimes directed to stand.
Plaintiff takes a step or two back and starts to
turn his body. His left hand is closed as it had been ever
since Bonnewell [9] stopped to say something to the
plaintiff the first time. Correctional Officer Verde then
enters the video coming from the same direction and
on the same side of the hall as the other two officers.
Verde enters approximately ten seconds after
Bonnewell turns to reengage the plaintiff. Verde enters
quickly, but not at a run and starts to tackle the plaintiff with Verde’s left hand and arm reaching over plaintiff ’s left shoulder in the neck area. All three officers
and the defendant go to the ground after about five
seconds of struggle with the defendant initially going
to his knees in what might be described as a fetal position.
A fourth correctional officer joins with the defendants and an active struggle ensues for about 20 to 25
seconds. Ultimately, the plaintiff is handcuffed on his
feet and walked away after another 30 to 35 seconds or
so.
The entire incident where any [10] physical force
was used is just over a minute in duration. During the

14a
struggle, Bonnewell appears to spray something, cap
stun, in the plaintiff ’s face, but at no time did the Court
see any correctional officer kick or punch the plaintiff.
Physical force in the video shows the plaintiff being tackled with defendant Verde initiating that action
and then a bit of a scrum until the plaintiff was handcuffed, the four officers and the plaintiff on the ground.
Superior Court Rule 56C provides that summary
judgment is appropriate when there is no genuine issue of material fact and the moving party is entitled to
judgment as a matter of law.
The moving party initially bears the burden of establishing both of these elements. If there is such a
showing, the burden shifts to the non-moving party to
show that there are material issues of fact for resolution by the ultimate fact finder.
The Court considers the pleadings, [11] depositions,
answers to interrogatories and admissions on file, together with the affidavits, if any, in determining
whether to grant summary judgment.
Summary judgment will be appropriate only when
upon viewing all of the evidence in a light most favorable to the non-moving party, the Court finds that
there is no genuine issue of material fact. When material facts are in dispute where it seems desirable to
inquire more thoroughly into the facts to clarify the
application of the law to the circumstances, summary
judgment will not be appropriate.

15a
However, when the facts permit a reasonable person to draw but one inference the question becomes
one for decision as a matter of law.
The Court turns first to the defendants’ claims of
qualified immunity and immunity under the Delaware
State Tort Claims Act which the defendant’s assert
with respect to the plaintiff ’s 1983 claims and the state
[12] law claims respectively.
Claims 1983 and related 1985 claims are based on
an allegation that his eighth amendment right to be
free from cruel and unusual punishment was violated
by the defendants’ use of excessive force. That issue
turns on whether the force was applied in good faith –
in a good faith effort to maintain or restore discipline
or maliciously and sadistically for the very purpose of
causing harm.
Much argument has been devoted to what has
been referred to as the Whitley factors set out in Whitley V Albers, 475 U.S. 312 and the Court has considered
those factors in making its decision.
Court also focuses on different language in Whitley found that 321 and 322 which reads prison administrators should be accorded wide-ranging deference in
the adoption and execution of policies and practices in
that their judgment needed to preserve internal order
and discipline and to [13] maintain institutional security. That deference extends to a prison security measure taken in response to an actual confrontation with
riotous inmates just as it does to prophylactic or

16a
preventative measures intended to reduce the incidents of these and any other breaches of prison discipline.
It does not insolate from review actions taken in
bad bath for no legitimate purpose, but it requires that
neither judge nor jury freely substitute their judgment
of that of officials who have made a considered choice.
Accordingly, in ruling on a motion for a directed verdict
in such a case as this – and parenthetically, that’s referring to Whitley, and as in motions for summary
judgment motions for directed verdict, view the evidence and the inferences in a light most favorable to
the non-moving party.
Courts must determine whether the evidence goes
beyond a mere dispute over the reasonableness of a
particular use of force or the existence of arguably superior [14] alternatives.
Unless it appears that the evidence viewed in a
light most favorable to the plaintiff will support a reliable inference of wantonness and the infliction of pain
under the standard we have described, the case should
not go to the jury.
Only if ordinary errors of judgment could make
out an eighth amendment claim would this evidence in
Albers create a jury question.
Qualified immunity attaches when the officers’
conduct does not violate clearly-established statutes or
constitutional rights of which a reasonable person
would have known.

17a
Immunity protects all, but the plainly incompetent for those who knowingly violate the law. Qualified
immunity is a question of law determined by the Court
and necessarily the fact-specific enterprise.
In addition to the video, the Court has considered
the report and deposition [15] testimony of plaintiff ’s
expert, Martin Horn. Horn was asked to give an opinion as to whether the use of force was appropriate,
justified or excessive. His opinion was that there was
no need to take the plaintiff to the floor in the first instance and everything proceeded from that. I’m quoting from Horn’s deposition at 178 and 179.
He believed that everything emanated from when
Bonnewell got within an inch of the plaintiff ’s face and
appeared to be speaking to him in a loud tone. Horn
says he can’t ignore that and says that Bonnewell is
the professional. He’s the one who is subject to the
rules. He is the one with the obligation to de-escalate,
not Anderson.
Finally, Horn opines that the actions of the officers
were not in keeping with the generally-accepted standards of behavior for boot camp officers.
The Court views Mr. Horn’s opinions and the inferences to be drawn from it in the light most favorable
to the plaintiff. If [16] this were a standard of care
case in a different context, it would clearly be enough
to defeat summary judgment, but this is an eighth
amendment cruel and unusual punishment case involving a malicious or sadistic standard. Not only does
Mr. Horn offer no opinion on that score, the video

18a
refutes it. It shows zero kicking, punching and other
malicious and sadistic acts of violence, if that was the
purpose to inflict injury. In reality, apart from Officer
Verde’s take down, which I’ll address later, it shows
nothing more than the force necessary to cuff an uncooperative inmate.
As to the particular defendants, Bonnewell gets
into the plaintiff ’s face and joins in the take down once
it is occurring and participates in the scrum including
cap stunning the plaintiff. None of this amounts to malicious and sadistic behavior for the purpose of inflicting pain.
Taylor does even less and Horn recognizes that.
Verde initiates the take [17] down, but while the use of
that force might be questioned, that clearly falls within
what Whitley says is a dispute of the reasonableness
of the use of force or the existence of arguably superior
alternatives.
The Court finds, one, that the use of force did not
violate the eighth amendment. And, two, that the defendants are entitled to qualified immunity because
there is no violation to a constitutional right.
Therefore, the motions for summary judgment as
it relates to the 1983, 1985 claims which are four and
five in the complaint are granted.
The Court next turns to the question of whether
the Delaware State Tort Claims Act which was the
claims against the defendants. Under the Delaware
State Tort Claims Act state actors who are employees

19a
who are sued in their individual capacities are exempt
from liability when the alleged act or failure to act
arises out of and in connection with the performance of
official duties involving the [18] exercise of discretion,
the act or failure to act was done or not done in good
faith and I believe that the public interest would be
served thereby. And, three, the act or failure to act was
done without gross or wanton negligence.
A plaintiff can avoid the application of the Delaware State Tort Claims Act immunity and defeat that
immunity if he can prove the absence of one of those
three elements. Here the plaintiff argues that the defendants’ actions were in bad faith and that they acted
with gross or wanton negligence.
The Court does not view the standards for application of qualified immunity to the federal claims as
the same as Delaware State Tort Claims Act immunity.
Qualified immunity deals with a violation of a
constitutional right. Delaware State Tort Claims Act
immunity deals with issues of gross negligence and
good faith.
Bad faith is simply not bad judgment or negligence. It applies conscious doing of [19] a wrong because of dishonest purpose or moral obliquity.
Nothing the plaintiff offers as he steps in bad faith
meets that test. Not the claim that the correctional
officers hi fived each other after the fact or that
Bonnewell and Taylor were punishing the plaintiff because he was showing off in front of other inmates. The

20a
former does not speak to a consciousness of doing
wrong because of dishonest purpose or moral obliquity.
And the latter might serve as a legitimate basis for
imposition of some sanction.
As to the question of gross or wanton negligence,
the plaintiff basis his argument on the fact that the
defendant engaged – defendants engaged in intentional acts which is a greater standard than gross or
wanton negligence.
But the question is not whether the defendants
acted intentionally as in doing what they did volitionally. Here the question is whether the perception of the
need to do [20] those actions was taken – that the defendants took was grossly or wantonly negligent.
Gross negligence represents more than ordinary
inadvertence or inattention. It’s an extreme departure
from the ordinary standard of care. The deviation from
the duty of care can also be demonstrated by willful
and wanton conduct.
Willfulness indicates an intent or a conscious decision to disregard the rights of others. Wanton conduct
occurs when a person who not intending to cause harm
does something so unreasonable and so dangerous that
the person either knows or should know that harm will
probably result.
In applying the gross or wanton negligence standard, the Court takes into account the reports of Martin
Horn that they submitted in connection with the
state’s motion in limine, as well as those portions of

21a
his deposition testimony that accompany the submissions in connection with these motions.
Like Mr. Horn, the Court places great [21] weight
on the video.
First, as to Sergeant Taylor. Sergeant Taylor joined
Lieutenant Bonnewell in directing the plaintiff to the
footprints and only joined in the physical altercation
after Correctional Officer Verde initiated it. He did
nothing more than what was necessary to restrain the
plaintiff to get the handcuffs on him. He did not kick
or punch the plaintiff.
Mr. Horn notes that Sergeant Taylor was in a difficult position. He understood Sergeant Taylor’s actions, although he would have preferred Sergeant
Taylor to stop the ongoing scrum.
On these facts that is shown in the video, the
Court finds no genuine issue of material fact as to
whether Sergeant Taylor acted with gross or wanton
negligence. He did not.
Turning to Lieutenant Bonnewell, Lieutenant
Bonnewell did not initiate any physical confrontation.
Mr. Horn does find fault with Lieutenant Bonnewell
for his [22] aggressiveness in confronting the plaintiff
after the plaintiff violated the rules about addressing
officers at least twice.
Mr. Horn feels Lieutenant Bonnewell should have
de-escalated the situation. It was only after Correctional Verde initiated the physical struggle, however
Lieutenant Bonnewell put his hands on the plaintiff.

22a
Everything he did on the video was done in an effort to subdue a struggling inmate including the use of
cap stun. There is no reason to believe that had either
the plaintiff complied more quickly with the correctional officers’ instructions or had Verde not intervened, no cause of action would have arisen from this
incident.
Again, the Court finds no genuine issue of material fact Lieutenant Bonnewell was grossly or wantonly negligent. He was not.
Finally, the Court turns to Correctional Officer
Verde. Here the most disturbing allegation is that Correctional [23] Officer Verde applied a choke hold to the
plaintiff. If supported by evidence in the video record,
or at least not blatantly contradicted by the video, such
an action might support a determination of gross or
wanton negligence.
The Court has carefully reviewed the video for any
evidence that Verde applied the choke hold.
I should add that the Court has reviewed the video
on many occasions looking specifically for whether Correctional Officer Verde applied the choke hold. There is
just simply no such evidence. What Verde does do is
initiate a take down of the plaintiff by reaching over
the plaintiff ’s left shoulder with his left arm, with Correctional Officer Verde’s left forearm on the left side
of the plaintiff ’s neck. The contact lasts no more than
three or four seconds as Correctional Officer Verde and
others attempt to take the plaintiff down.

23a
To the extent Mr. Horn believed that [24] a choke
hold was applied, the video blatantly refutes that contention.
Further, the Court finds that Correctional Officer
Verde was, at most, negligent in his assessment of the
situation occurring with Lieutenant Bonnewell and
Sergeant Taylor and the need to use force that that
situation created.
Plaintiff did have his left hand closed in the video
and whether he was blading or retreating is debatable,
but what – that debate merely raises an issue of negligence on Correctional Officer Verde’s part and not
gross or wanton negligence.
Again, there is no genuine issue as to material
fact as to gross or wanton negligence. There was not on
Correctional Officer Verde’s part.
Because the plaintiff has failed to overcome the
immunity afforded by the Delaware State Tort Claims
Act as to all the defendants and because there was no
eighth amendment violation, all of the defendants’ motions for [25] summary judgment are granted.
Thank you, everyone.
MR. GALLAGHER: Your Honor, Pat Gallagher.
Point of clarification.
THE COURT:

Yes.

MR. GALLAGHER: First, for the record, I
want to note my objection to the Court’s ruling and,

24a
second, who is the court reporter today, please? I’d like
to get a transcript.
COURT REPORTER:
I’ll send you an e-mail over.
MR. GALLAGHER:
THE COURT:

Okay. I’ll get you one.
Okay.

There you go.

(At 10:27 a.m. proceedings were concluded.)
–––
[26] CERTIFICATE
I, KIMBERLY A. BURSNER, RPR, Official Court
Reporter of the Superior Court, State of Delaware, do
hereby certify that the foregoing is an accurate transcript of the proceedings had, as reported by me, in the
Superior Court of the State of Delaware, in and for
New Castle County, in the case herein stated, as the
same remains of record in the Office of the Prothonotary in Wilmington, Delaware, and that I am neither
counsel nor kin to any party or participant in said action, nor interested in the outcome thereof.
WITNESS my hand this 4th day of October 2019.

Kimberly A. Bursner, RPR
Official Court Reporter

25a
EFiled: May 05 2020 11:07AM EDT
Filing ID 65616710
Case Number 394,2019

[SEAL]

IN THE SUPREME COURT OF THE
STATE OF DELAWARE
MATTHEW ANDERSON,

§
§
Plaintiff Below,
§
Appellant,
§
v.
§
§
LIEUTENANT JOHN
§
BONNEWELL, individually,
SERGEANT BRUCE TAYLOR, §
§
individually, and CORREC§
TIONAL OFFICER EDGAR
§
VERDE, individually,
§
Defendants Below,
§
Appellees.
§

No. 394, 2019

Court Below –
Superior Court
of the State of
Delaware
C.A. No.
N17C-02-080

Submitted: May 1, 2020
Decided: May 5, 2020
Before SEITZ, Chief Justice; VALIHURA, VAUGHN,
TRAYNOR, and MONTGOMERY-REEVES, Justices, constituting the Court en Banc.
ORDER
This 5th day of May, 2020, the Court has carefully
considered the motion for rehearing en Banc filed by
appellant and it appears that the motion for rehearing
en Banc is without merit and should be denied.

26a
NOW, THEREFORE, IT IS ORDERED that the
motion for rehearing en Banc is DENIED.
BY THE COURT:
/s/ Tamika R. Montgomery-Reeves
Justice

